        Review of the Office of Postsecondary Education’s
         Awarding of Prior Experience Points in the 2006
       Educational Opportunity Centers and Talent Search
                       Grant Competitions




                        FINAL INSPECTION REPORT




                                 ED-OIG/I13I0001
                                  September 2008




Our mission is to promote the                      U.S Department of Education
efficiency, effectiveness, and                     Office of Inspector General
integrity of the Department's                      Washington, D.C.
programs and operations.
    Statements that managerial practices need improvements, as well as other
  conclusions and recommendations in this report, represent the opinions of the
 Office of Inspector General. Determinations of corrective action to be taken will
          be made by the appropriate Department of Education officials.


   In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports
issued by the Office of Inspector General are available to members of the press and
     general public to the extent information contained therein is not subject to
                               exemptions in the Act.
                                   UNITED STATES DEPARTMENT OF EDUCATION
                                                        OFFICE OF INSPECTOR GENERAL



                                                                                      September 8, 2008

Memorandum
TO:                  Cheryl Oldham
                     Acting Assistant Secretary
                     Office of Postsecondary Education

FROM:                Wanda A. Scott /s/
                     Assistant Inspector General
                     Evaluation, Inspection, and Management Services

SUBJECT:             Final Inspection Report
                     Review of the Office of Postsecondary Education’s Awarding of Prior Experience
                     Points in the 2006 Educational Opportunity Centers and Talent Search Grant
                     Competitions (Control Number ED-OIG/I13I0001)

Attached is the final inspection report of our Review of the Office of Postsecondary Education’s
Awarding of Prior Experience Points in the 2006 Educational Opportunity Centers and Talent
Search Grant Competitions. We received your comments to our draft report on July 11, 2008. A
copy of your response to the draft report in its entirety is attached.

Corrective actions proposed (resolution phase) and implemented (closure phase) will be
monitored and tracked through the Department's Audit Accountability and Resolution Tracking
System (AARTS). Department policy requires that you develop a proposed corrective action
plan for our review in the automated system within 30 days of the issuance of this report. The
corrective action plan should set forth the specific action items, and targeted completion dates,
necessary to implement final corrective actions on the findings and recommendations contained
in this final inspection report.

In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
General is required to report to Congress twice a year on the reports that remain unresolved after
six months from the date of issuance.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation given us during this review. If you or your staff have any
questions, please contact Christopher Wilson, Acting Assistant Director, Evaluation and
Inspection Services at 202-245-7061.

Enclosure


 The Department of Education's mission is to promote student achievement and preparation for global competitiveness by fostering educational
                                                   excellence and ensuring equal access.
                                             TABLE OF CONTENTS

                                                                                                                               Page

EXECUTIVE SUMMARY....................................................................................................... 1

BACKGROUND....................................................................................................................... 3

INSPECTION RESULTS ........................................................................................................ 5

          FINDING NO. 1 – OPE’s Awarding of Prior Experience Points was
                          Not in Compliance with the Regulations .................................... 5

          FINDING NO. 2 – OPE Awarded Points to Grantees that Did Not
                          Meet Minimum Program Requirements .................................... 7

          FINDING NO. 3 – OPE Made Errors in the Execution of its Prior
                          Experience Points Assessment .................................................... 8

          FINDING NO. 4 – OPE Changed its Process for Awarding Prior
                          Experience Points without Having the Appropriate
                          Data to Evaluate Grantees ........................................................ 10

DEPARTMENT COMMENTS ............................................................................................. 13

OBJECTIVE, SCOPE, AND METHODOLOGY................................................................. 17

APPENDICES ........................................................................................................................ 19

          Appendix 1             Educational Opportunity Centers (EOC) Issues by
                                 Finding (Sample of 20)...................................................................... 19

          Appendix 2             Talent Search Issues by Finding (Sample of 20) .............................. 20

          Appendix 3             EOC Grantees with Differences in Total Points Between
                                 the Assessment Form and Funding Slate ......................................... 21

          Appendix 4             EOC Grantees with Point Gains Due to Math and
                                 Transcription Errors ........................................................................ 22

          Appendix 5             EOC Grantees with Point Losses Due to Math and
                                 Transcription Errors ........................................................................ 23
Final Report
ED-OIG/I13I0001                                                                    Page 1 of 29



                               EXECUTIVE SUMMARY


The objective of our inspection was to evaluate the appropriateness of the Office of
Postsecondary Education’s (OPE) awarding of prior experience points in the 2006 Educational
Opportunity Centers (EOC) and Talent Search grant competitions. Our inspection is the result of
a request from Congress, dated October 2, 2007.

We found that OPE inappropriately awarded prior experience points for the 2006 EOC and
Talent Search grant competitions. As a result, some grantees without prior experience near the
funding threshold may have been wrongly denied funding and some grantees above the funding
threshold may have been inappropriately awarded funding. Specifically, we found that —

1. OPE’s awarding of prior experience points was not in compliance with the regulations
   because OPE:
   § Improperly awarded partial points, and
   § Did not evaluate an objective in the Talent Search competition.

2. OPE awarded points to grantees that did not meet minimum program requirements.

3. OPE made errors in the execution of its prior experience points assessment.
   § In the EOC competition, OPE used incorrect source data, made documentation errors,
     and made math and transcription errors, and
   § In the Talent Search competition, OPE made documentation errors.

4. OPE changed its process for awarding prior experience points without having the appropriate
   data to evaluate grantees.
   § In the EOC competition:
       § Annual performance reports (APRs) lacked data for combined objectives,
       § OPE automatically awarded points due to lack of data, and
       § Grantee objectives did not correspond with the prior experience assessment.
   § In the Talent Search competition:
       § Grantee objectives did not correspond with the prior experience assessment.

We recommend that the Assistant Secretary for Postsecondary Education —

·   Cease awarding partial prior experience points for Criterion 1 for future EOC and Talent
    Search grant competitions.
·   Develop a methodology for assessing prior experience for reentry in accordance with 34
    C.F.R. § 643.22(b)(2) for future Talent Search grant competitions.
·   Cease awarding prior experience points to grantees for years that they do not meet minimum
    program requirements for future EOC and Talent Search grant competitions.
·   Develop a quality assurance process for the assessment of prior experience for future EOC
    competitions to ensure accountability and the accuracy of data and calculations.
·   Ensure that the data used to assess prior experience is clearly identified and sufficiently
    documented to support the calculation for future EOC and Talent Search grant competitions.
Final Report
ED-OIG/I13I0001                                                                       Page 2 of 29

·   Ensure that the objectives used to assess prior experience correspond to grantees’ application
    objectives for future EOC and Talent Search grant competitions.

We provided OPE with a copy of our draft report for comment. Based on OPE’s comments, we
separated the first finding in the draft report into two findings (Finding 1 and Finding 2), re-
numbered the remaining findings, and made various clarifications.

The recent reauthorization of the Federal TRIO programs by the Higher Education Opportunity
Act, Pub. L. 110-315 (enacted August 14, 2008), specified changes to the criteria for evaluating
prior experience that may affect OPE’s implementation of the recommendations made in this
report.
Final Report
ED-OIG/I13I0001                                                                        Page 3 of 29



                                       BACKGROUND


On October 2, 2007, 15 members of Congress expressed concern that the Department of
Education (Department) inappropriately awarded prior experience points in the 2006 Educational
Opportunity Centers (EOC) and Talent Search grant competitions and requested that we review
this matter.

The EOC and Talent Search programs are part of the Federal TRIO outreach programs designed
to support students from disadvantaged backgrounds. These programs, implemented by the
Department’s Office of Postsecondary Education (OPE), are targeted to serve and assist low-
income, first-generation college students and students with disabilities. Both the EOC and
Talent Search programs serve low-income, first generation college students. The EOC program
provides counseling and information on college admissions to qualified adults who want to enter
or continue a program of postsecondary education. The Talent Search program provides
academic, career, and financial counseling to its participants from disadvantaged backgrounds
and encourages them to graduate from high school and continue on to a postsecondary
institution. The regulations at 34 C.F.R. § 644.32(b) specify that an EOC grantee shall serve a
minimum of 1,000 participants in each year, while the regulations at 34 C.F.R. § 643.32(b)
specify that a Talent Search grantee shall serve a minimum of 600 participants in each year.

The EOC and Talent Search programs hold grant competitions every four years. The Secretary
evaluates an application for a new grant based on the project’s need, objectives, plan of
operation, applicant and community support, quality of personnel, budget, and evaluation plan.
The maximum application score for these criteria is 100 points.

The Secretary also awards a maximum of 15 additional points for prior grant experience. Unlike
the application scores determined by individuals serving as field readers who are external to the
Department, prior experience points are determined by Department staff. The Higher Education
Act of 1965, as amended (HEA), specifies that the Department should remain historically
consistent in its application of prior experience points for future competitions by not varying
from the level of consideration provided to grant applicants during fiscal years 1994 through
1997. The number of points awarded for prior experience has remained consistent since the
specified period of time. Although OPE modified its formula for evaluating prior experience for
both the EOC and Talent Search competitions in 2006, it did not change the maximum number
of points grantees were eligible to earn.

For the 2006 competitions, OPE assessed grantees for their prior experience in fiscal years 2002-
03, 2003-04, and 2004-05. The regulations at 34 C.F.R. § 644.22(b) for the EOC program and
34 C.F.R. § 643.22(b) for the Talent Search program specify that the Secretary evaluate prior
experience based on three sets of criteria. Criterion 1 for both programs, with a maximum score
of three points, requires that the Secretary evaluate whether the applicant provided services to the
number of participants required to be served and whether two-thirds of all participants served
were low-income individuals and potential first-generation college students.
Final Report
ED-OIG/I13I0001                                                                      Page 4 of 29

Criteria 2 and 3 for both programs require the Secretary to evaluate specific subsets of the
population served by the applicant. Each criterion is worth a maximum of six points. Under
Criterion 2 for the EOC program, the Secretary evaluates the extent to which the applicant met or
exceeded its objectives regarding the provision of assistance to individuals in applying for
admission to, or financial aid for, programs of postsecondary education. Under Criterion 3, the
Secretary evaluates the extent to which the applicant met or exceeded its objectives regarding the
admission or reentry of participants to programs of postsecondary education. Under Criterion 2
for the Talent Search program, the Secretary evaluates the extent to which the applicant met or
exceeded its objectives regarding the retention, reentry, and graduation levels of secondary
school participants, while under Criterion 3, the Secretary evaluates the extent to which the
applicant met or exceeded its objectives regarding the admission or reentry of participants to
programs of postsecondary education.

OPE had 335 grant applicants for the 2006 EOC competition and funded 125. All funded
applicants were eligible for and received prior experience points. There were a total of 137 EOC
grantees that were assessed for prior experience. The funding threshold for the 2006 EOC
competition was 100.33 points out of a maximum of 115 points.

OPE had 772 grant applicants in the 2006 Talent Search competition and funded 468. Of these,
400 were eligible for and received prior experience points, and one was eligible but did not earn
any points. There were 457 Talent Search grantees that were assessed for prior experience and
eligible for funding. The threshold for the 2006 Talent Search competition was 98.33 points out
of a total of 115 points.

The recent reauthorization of the Federal TRIO programs by the Higher Education Opportunity
Act, Pub. L. 110-315 (enacted August 14, 2008), specified changes to the criteria for evaluating
prior experience that may affect OPE’s methodology for awarding prior experience points.
Final Report
ED-OIG/I13I0001                                                                      Page 5 of 29



                                 INSPECTION RESULTS


The objective of our inspection was to evaluate the appropriateness of OPE’s awarding of prior
experience points in the 2006 EOC and Talent Search grant competitions. We found that OPE
inappropriately awarded prior experience points for the 2006 EOC and Talent Search grant
competitions. As a result, some grantees without prior experience near the funding threshold
may have been wrongly denied funding and some grantees above the funding threshold may
have been inappropriately awarded funding.

We found that (1) OPE’s awarding of prior experience points was not in compliance with the
regulations, (2) OPE awarded points to grantees that did not meet minimum program
requirements, (3) OPE made errors in the execution of its prior experience points assessment,
and (4) OPE changed its process for awarding prior experience points without having the
appropriate data to evaluate grantees.


FINDING NO. 1 – OPE’s Awarding of Prior Experience Points was Not in
                Compliance with the Regulations

We found that OPE improperly awarded partial points in both the EOC and Talent Search
competitions. In our sample of 20 EOC grantees, we found that OPE did not award prior
experience points in compliance with the regulations for 4 of the grantees (see Appendix 1). We
also found that OPE did not evaluate an objective in the Talent Search competition. In our
sample of 20 Talent Search grantees, we found that OPE did not award prior experience points in
compliance with the regulations for 16 of the grantees (see Appendix 2).

OPE Improperly Awarded Partial Points
The EOC regulations at 34 C.F.R. § 644.22(b)(1) state that the Secretary should evaluate prior
experience for Criterion 1 based on the following:

       (i) Whether the applicant provided services to the required number of participants
       who resided in the target area; and (ii) Whether two-thirds of all participants
       served were low-income individuals and potential first-generation college
       students [emphasis added].

OPE evaluated Criterion 1 in two parts for the EOC competition. The regulations at 34 C.F.R.
§ 644.22(b)(1)(i) correspond to Criterion 1a of the EOC assessment, and the regulations at 34
C.F.R. § 644.22(b)(1)(ii) correspond to Criterion 1b.

The Talent Search regulations at 34 C.F.R. § 643.22(b)(1) similarly state that the Secretary
should evaluate prior experience for Criterion 1 based on the following:

       (i) Whether the applicant provided services to the number of participants required
       to be served under the approved application; and (ii) Whether two-thirds of all
Final Report
ED-OIG/I13I0001                                                                                      Page 6 of 29

        participants served were low-income individuals and potential first-generation
        college students [emphasis added].

Like the EOC competition, OPE evaluated Criterion 1 in two parts for the Talent Search
competition. The regulations at 34 C.F.R. § 643.22(b)(1)(i) correspond to Criterion 1a of the
Talent Search assessment. The regulations at 34 C.F.R. § 643.22(b)(1)(ii) correspond to
Criterion 1b.

OPE awarded partial points for Criterion 1 in both the EOC and Talent Search competitions. A
grantee could earn a maximum of 1.5 points for meeting Criterion 1a, and another 1.5 points for
meeting Criterion 1b. The regulations, however, state that an applicant should be awarded three
points for meeting both part (i) and part (ii).

In the 2002 EOC and Talent Search competitions, when a grantee did not serve the number of
participants it was funded to serve (funded to serve number), OPE used two-thirds of the actual
number of participants served for Criterion 1b. This method rewarded some grantees with prior
experience points although they did not meet the terms of their grant agreements. For the 2006
EOC and Talent Search competitions OPE used the larger of the actual number served or the
funded to serve number to calculate Criterion 1b.1 This new method made it more difficult for
grantees to earn prior experience points in 2006 by appropriately requiring grantees to serve the
required minimum number of low-income and potential first-generation college students in order
to receive points under Criterion 1b; however, the method still allowed some grantees to receive
prior experience points without meeting the terms of their grant agreement identified in Criterion
1a. Of the 20 EOC grantees in our sample, 4 received partial points for Criterion 1. Of the 20
Talent Search grantees in our sample, 7 received partial points.

Like the 2002 competitions, OPE continued to award partial points to grantees for Criterion 1.
OPE did not correctly interpret the inclusive nature of the “and” in the regulations for Criterion 1
for both the EOC and Talent Search programs. OPE’s practice of awarding partial points has not
considered the requirement in the regulations that both conditions, parts (i) and (ii), must be met
to earn prior experience points. Grantees that earned partial points had an advantage over new
applicants that did not have prior experience. As the regulation is written, a grantee should not
be able to earn prior experience points for Criterion 1 without meeting the requirements of both
Criterion 1a and Criterion 1b.

OPE Did Not Evaluate Reentry in the Talent Search Competition
The Talent Search regulations at 34 C.F.R. § 643.22(b)(2) state that the Secretary should
evaluate prior experience for Criterion 2 based on “[t]he extent to which the applicant met or
exceeded its objectives regarding the retention, reentry, and graduation levels of secondary
school participants.” In the 2006 Talent Search competition, OPE evaluated prior experience
only for retention and graduation, even though the regulations provide that all three objectives
should be evaluated. An OPE official stated that reentry was not evaluated because not every
grantee had a reentry objective. There were applicants in the competition, however, that had
1
  For example, if a hypothetical grantee in the 2002 Talent Search competition was funded to serve 600 participants
and actually served 450—300 of whom were low-income and potential first-generation college students—that
grantee would receive points under Criterion 1b, as 300 is 2/3 of the 450 participants actually served. In order to
receive points under Criterion 1b in 2006, that grantee would have needed to serve at least 400 low-income and
potential first-generation college students (2/3 of the 600 participants funded to serve).
Final Report
ED-OIG/I13I0001                                                                                    Page 7 of 29

reentry objectives stated in their applications. Of the 20 Talent Search grantees in our sample, 12
had a reentry objective percentage for Criterion 2. Because OPE did not evaluate reentry,
grantees with reentry objectives were not properly evaluated for this criterion and may not have
received the correct number of prior experience points.

Recommendations

We recommend that the Assistant Secretary for Postsecondary Education —

1.1 Cease awarding partial prior experience points for Criterion 1 for future EOC and Talent
    Search grant competitions.
1.2 Develop a methodology for assessing prior experience for reentry in accordance with 34
    C.F.R. § 643.22(b)(2) for future Talent Search grant competitions.


FINDING NO. 2 – OPE Awarded Points to Grantees that Did Not Meet Minimum
                Program Requirements

In both the EOC and Talent Search grant competitions, OPE awarded prior experience points to
grantees that did not comply with the minimum program requirements. The EOC program
requires grantees to serve a minimum of 1,000 participants, while the Talent Search program
requires a minimum of 600 participants. Grantees that failed to serve the minimum number of
program participants did not comply with the basic requirements of the grant and should not be
awarded prior experience points for any of the criteria in those years. Therefore, OPE provided
these grantees with an advantage by awarding points for years where they did not meet minimum
requirements. Of the 20 EOC grantees in our sample, 5 received prior experience points in years
where they did not meet the minimum requirement. Of the 20 Talent Search grantees in our
sample, 2 received such points in years where they did not meet the minimum requirement.2

Recommendation

We recommend that the Assistant Secretary for Postsecondary Education —

2.1 Cease awarding prior experience points to grantees for years that they do not meet
    minimum program requirements for future EOC and Talent Search grant competitions.




2
  Under both programs, the Department can reduce the minimum number of participants a grantee is required to
serve if the amount of the grant for the budget period is less than $180,000. None of the exceptions we noted
involved a grantee with a reduced participant number and a grant amount of less than $180,000.
Final Report
ED-OIG/I13I0001                                                                                      Page 8 of 29

FINDING NO. 3 – OPE Made Errors in the Execution of its Prior Experience
                Points Assessment

We found that OPE made execution errors in assessing prior experience for the EOC and Talent
Search competitions. In our sample of 20 EOC grantees, we found that OPE made execution
errors in assessing prior experience for 16 of the grantees (see Appendix 1). In our sample of 20
Talent Search grantees, we found that OPE made execution errors in assessing prior experience
for 7 of the grantees (see Appendix 2).

OPE Made Execution Errors in Assessing Prior Experience for the EOC Competition
In the EOC competition, OPE program specialists manually performed the assessment
calculations. The prior experience assessments for the EOC competition contained incorrect
source data, lacked documentation, and had math and transcription errors.

Incorrect source data. The prior experience assessment forms in the EOC competition
contained incorrect data obtained from the applications, the annual performance reports (APRs),
and a spreadsheet containing data for Criterion 1.3 Errors included program specialists
transcribing a number incorrectly from the source document to the assessment form and using
the wrong data element from the source document to evaluate a criterion on the assessment form.
These errors resulted in inaccurate assessments of prior experience because incorrect numbers
were used in the calculations. OPE did not have an adequate quality assurance process in place
to check for these errors. Of the 20 EOC grantees in our sample, 12 had source data errors.

Lack of documentation. The prior experience assessment forms in the EOC competition lacked
sufficient documentation. Of the 137 EOC prior experience assessments, we found that 34
assessments (25%) had insufficient documentation of the scoring on the assessment form to
determine whether the criteria were appropriately evaluated. Program specialists’ documentation
errors on the assessment form included determining achievement rates but not providing all of
the information necessary to perform the calculation and not including the objective percentages
from the application. Without adequate documentation of the assessment scoring, there is no
assurance that the data used to evaluate prior experience is accurate and appropriate.

In addition to the issues we identified on the assessment forms, there was also a lack of
documentation for changes from the total prior experience points stated on the assessment form
to the total points stated on OPE’s slate used for funding grantees. We found that for 12 of the
137 EOC prior experience assessments (9%), the grantee’s total prior experience points on the
assessment form did not match the total points on the slate (see Appendix 3). A program official
stated that the Director of TRIO at the time randomly selected grantees to review and based on
the review personally made changes to some scores. Without documentation, however, we were
unable to determine whether these differences were the result of a deliberate change and, if so,
whether the change was justified; or whether there was a transcription error.

Six of the 20 grantees in our sample had discrepancies between the funded to serve number
requested in the application and the number contained in the spreadsheet provided to program

3
  The spreadsheet was an OPE-created document that contained the number of participants a grantee was funded to
serve and the actual number it served. OPE instructed program specialists to use the spreadsheet as the source data
for completing Criterion 1 on the prior experience assessment form.
Final Report
ED-OIG/I13I0001                                                                     Page 9 of 29

specialists for evaluating Criterion 1. For four discrepancies, OPE used an incorrect number to
assess prior experience. The grantee files did not contain documentation explaining the
discrepancy. OPE officials stated that for some discrepancies between the funded to serve
number requested in the application and the number used to evaluate prior experience, it was
common practice to reduce the funded to serve number from the application to the funded to
serve number from the prior grant cycle if the grantee did not receive the additional funds it
requested in its application. OPE explained that the other two discrepancies resulted from this
practice. The grantee files did not contain written approval to document and justify the change
to the number funded to serve. Without written justification, there is no assurance that the
funded to serve number used to evaluate prior experience was accurate.

Math and transcription errors. Of the 137 EOC prior experience assessments, 76 (55%)
contained mathematical errors. Thirty-eight had errors that resulted in OPE inappropriately
awarding prior experience points. Of these, 17 grantees gained points that they had not earned
and 21 grantees lost points that they had earned (see Appendices 4 and 5). Some grantees had
significant changes in points. For example, four grantees gained three or more points due to
errors, while nine grantees lost three or more points.

Program specialists’ math and transcription errors included:

   §   Making calculation errors such as addition, multiplication, and division errors,
   §   Determining the correct achievement rate but awarding the wrong number of points,
   §   Reversing the numerator and the denominator in a calculation,
   §   Transcribing the wrong number from the calculation sheets to the cover sheet, and
   §   Incorrectly totaling the points on the cover sheet.

Execution errors in the assessment of prior experience were caused by inadequate internal
controls. The EOC prior experience assessment lacked an adequate quality assurance process.
OPE officials stated that there was no comprehensive review of the program specialists’ work on
the prior experience assessment forms. The control activities discussed in the Government
Accountability Office (GAO) Standards for Internal Control in the Federal Government specify
that there should be controls over information processing, which include activities such as edit
checks of data entered. OPE did not have any controls in place to ensure data integrity.

In addition, many program specialists did not sign and date their completed assessment forms.
Failure to ensure completion of this certification requirement indicates a control environment
that lacks accountability.

OPE Made Execution Errors in Assessing Prior Experience for the Talent Search
Competition
Lack of documentation. OPE used an automated spreadsheet to calculate prior experience
points for the Talent Search competition. There were discrepancies between the funded to serve
number requested in the application and the number used in the spreadsheet for 7 of the 20
grantees in our sample. For one discrepancy, OPE used an incorrect number to assess prior
experience. The grantee file did not contain documentation explaining this discrepancy. For
another discrepancy, OPE stated that it used the funded to serve number from the previous grant
cycle because the grantee reduced the funded to serve number requested in its application
without prior approval. As noted above, OPE officials stated that in some other cases it was
Final Report
ED-OIG/I13I0001                                                                      Page 10 of 29

common practice to reduce the funded to serve number from the application to the funded to
serve number used in the prior grant cycle if the grantee did not receive the additional funds it
requested in its application. OPE explained that the other five discrepancies resulted from this
practice. The grantee files did not contain written approval to document and justify the change
to the number funded to serve. As stated earlier, without written justification, there is no
assurance that the number funded to serve used to evaluate prior experience was accurate.

Recommendations

We recommend that the Assistant Secretary for Postsecondary Education —

3.1 Develop a quality assurance process for the assessment of prior experience for future EOC
    competitions to ensure accountability and the accuracy of data and calculations.
3.2 Ensure that the data used to assess prior experience is clearly identified and sufficiently
    documented to support the calculation for future EOC and Talent Search grant
    competitions.


FINDING NO. 4 – OPE Changed its Process for Awarding Prior Experience Points
without Having the Appropriate Data to Evaluate Grantees

OPE modified the methodology for awarding prior experience points for the 2006 EOC and
Talent Search grant competitions. In making this change, however, OPE failed to take into
account the limitations of the data it collected from grantees and did not have the data needed to
support the modified methodology. In our sample of 20 EOC grantees, we found that 5 had an
issue that resulted from OPE changing its process for awarding prior experience points without
having the appropriate data to evaluate grantees (see Appendix 1). In our sample of 20 Talent
Search grantees, we found that 8 had an issue (see Appendix 2).

OPE Changed its Process without Having the Appropriate Data in the EOC Competition
Under Criterion 2 for the EOC program, the Secretary evaluates the extent to which the applicant
met or exceeded its objectives regarding the provision of assistance to individuals in applying for
admission to, or financial aid for, programs of postsecondary education. For this criterion, OPE
provided program specialists with different methods to calculate prior experience for 2002-03
and 2003-04. A grantee could be awarded prior experience points for each individual objective
of assisting participants with applying for postsecondary admissions and for financial aid or the
objectives could be combined into one objective to award the points.

Under Criterion 3, the Secretary evaluates the extent to which the applicant met or exceeded its
objectives regarding the admission or reentry of participants to programs of postsecondary
education. For this criterion, OPE also provided program specialists with different methods to
calculate prior experience for 2002-03 and 2003-04. A grantee could be awarded prior
experience points for each individual objective of enrollment in postsecondary education and
reentry to postsecondary education; enrollment only in postsecondary education; or the
objectives for enrollment in postsecondary education and reentry to postsecondary education
could be combined into one objective.
Final Report
ED-OIG/I13I0001                                                                      Page 11 of 29

Annual Performance Reports (APRs) Lacked Data for Combined Objectives. To determine the
number of students a grantee assisted under both criteria, program specialists were instructed to
take the corresponding number of participants assisted for each objective from the APR.
Because the APR did not have a specific field for grantees to report on combined objectives,
OPE instructed program specialists to add the numbers for each objective to determine the
combined number assisted under each criterion. Since an individual could receive assistance
under both objectives for each criterion, these numbers could overlap, leading to double
counting. The numerator for the combined objective was not adjusted to account for the double
counting, resulting in 40 of the 137 EOC grantees (29%) evaluated for prior experience having
an achievement rate greater than 100 percent. Program specialists had flexibility in determining
whether an objective should be evaluated as separate or combined. In cases where a program
specialist used a combined objective, grantees had the benefit of double counting, making it
easier to earn prior experience points.

OPE Automatically Awarded Points Due to Lack of Data. OPE decided to automatically award
prior experience points to all EOC applicants with prior grant experience for Criteria 2 and 3 for
2004-05. OPE automatically awarded all grantees with prior experience 4 of the 15 prior
experience points, giving them an advantage over applicants without any prior experience. OPE
awarded these points without evaluating whether the grantee had achieved the two criteria for
that year. OPE made this decision because it did not request one of the data elements in the
2004-05 APR that was necessary to determine whether the grantee had earned prior experience
points for these two criteria. An OPE official stated that OPE eliminated the data element from
the APR because grantees had different interpretations of the data element and the data collected
was considered unreliable. Although OPE did not consider the data reliable and eliminated the
data element from the APR for 2004-05, OPE used it to calculate prior experience points for
2002-03 and 2003-04.

For the 2006 competition, all of the grant applicants that were funded were prior grantees who
earned prior experience points. The funding threshold in 2006 was 100.33 points. There were
19 grantees that were not eligible for prior experience points, but had perfect application scores
of 100. These grantees with perfect application scores may have received funding had OPE not
automatically awarded points because grantees with prior experience may have fallen below the
funding threshold.

Grantee Objectives Did Not Correspond with the Prior Experience Assessment. Though OPE
modified the methodology for calculating prior experience points in 2006, the grantees’ original
application objectives were written for the 2002 competition and did not necessarily correspond
with the new methodology. In some cases where the grantees’ objectives did not correspond
with the prior experience assessment, program specialists would give grantees the benefit of the
doubt by looking for similar objectives or using key words to find other objectives to use in the
prior experience assessment. In other cases, program specialists would use objective percentages
from the APR that were not stated in the grantees’ original approved applications. Without
precise data and standardized objectives, there is no assurance that grantees were appropriately
evaluated for the objectives stated in their applications. In our random sample of 20 EOC
grantees, 2 grantees had objectives in their applications that did not correspond with the
objectives used to evaluate prior experience.
Final Report
ED-OIG/I13I0001                                                                      Page 12 of 29

OPE Changed its Process without Having the Appropriate Data in the Talent Search
Competition
Under Criterion 2 for the Talent Search program, the Secretary evaluates the extent to which the
applicant met or exceeded its objectives regarding the retention, reentry, and graduation levels of
secondary school participants, while under Criterion 3, the Secretary evaluates the extent to
which the applicant met or exceeded its objectives regarding the admission or reentry of
participants to programs of postsecondary education.

Grantee Objectives Did Not Correspond with the Prior Experience Assessment. In our sample
of 20 Talent Search grantees, 5 provided more than one percentage for a single objective in the
application. In these cases, the number chosen for the prior experience assessment depended on
the program specialist performing the calculation. In some cases program specialists would
average the numbers, while in other instances they would just select one of the numbers. Four
Talent Search grantees in our sample of 20 had application objectives that did not correspond
with the modified methodology for calculating prior experience points in 2006. As noted above,
in some cases program specialists would give grantees the benefit of the doubt when the
grantees’ objectives did not correspond with the prior experience assessment. Therefore, there is
no assurance that grantees were appropriately evaluated for the objectives stated in their
application.

Changes to the Grant Applications for the EOC and Talent Search Grant Competitions
OPE has taken steps to address issues we identified in the 2006 EOC and Talent Search grant
competitions. The prior experience assessments for the next grant competitions will use data
from the 2006 EOC and Talent Search grant applications. Unlike the 2002 grant competitions, in
2006 OPE required all applicants to use specific, standardized objectives stated in the application
form. An OPE official stated that these standardized objectives will be used to evaluate prior
experience in future EOC and Talent Search competitions. Using these standardized objectives
should reduce variations in grantees’ objectives and eliminate problems associated with
evaluating combined objectives. In addition, OPE revised the 2006 EOC grant application form
to define the data elements used in the standardized objectives.

Recommendation

We recommend that the Assistant Secretary for Postsecondary Education —

4.1 Ensure that the objectives used to assess prior experience correspond to grantees’
    application objectives for future EOC and Talent Search grant competitions.
Final Report
ED-OIG/I13I0001                                                                        Page 13 of 29



                              DEPARTMENT COMMENTS


On June 5, 2008, we provided OPE with a copy of our draft report for comment. OPE provided
its comments to the report on July 11, 2008. Based on OPE’s comments, we separated the first
finding in the draft report into two findings: Finding 1 and Finding 2. As a result, we
renumbered Finding 2, Finding 3, and their corresponding recommendations. OPE did not agree
with Finding 1 of the draft report and agreed with Findings 2 and 3. A copy of OPE’s
comments, in their entirety, is attached to this report.

The recent reauthorization of the Federal TRIO programs by the Higher Education Opportunity
Act, Pub. L. 110-315 (enacted August 14, 2008), specified changes to the criteria for evaluating
prior experience that may affect OPE’s implementation of the recommendations made in this
report.

Finding 1
OPE did not agree with Finding 1 or with Recommendations 1.1, 1.2 (now 2.1), and 1.3 (now
1.2). OPE stated the draft report did not provide any significant legal or policy rationale for the
interpretation of the regulations.

Recommendation 1.1
Cease awarding partial prior experience points for Criterion 1 for future EOC and Talent Search
grant competitions.

OPE Comments
OPE did not agree with our recommendation. OPE stated that the OIG’s interpretation of the
Department’s regulations was that an applicant can receive only the specific number of prior
experience points for each criterion or zero. OPE stated that the Department has interpreted its
regulations as providing a maximum number of points for each criterion.

OIG Response
No changes have been made to the finding and recommendation based on OPE’s comments to
Recommendation 1.1; however, we clarified the discussion of OPE’s scoring of Criterion 1b in
the 2006 competitions.

We recognize that the Department has the discretion to interpret its regulations, and is entitled to
deference if the interpretation is reasonable. Our finding describes in detail our conclusion that
the plain text of the regulation and the use of “and” to link the two parts of Criterion 1 requires
that both parts of the provision be satisfied to earn any of the three available points under
Criterion 1. OPE did not provide any explanation as to why its interpretation and application
were considered reasonable in light of the plain text of the regulation. The EOC and Talent
Search programs are targeted to serve and assist low-income, first-generation college students.
OPE funds EOC and Talent Search grant applicants based on the number of participants the
grantees will serve. In their applications, grantees agree that two-thirds of those participants will
be low-income, first-generation college students. OPE’s methodology of awarding points allows
grantees to receive points without meeting the terms of their grant agreement. For example, in
Final Report
ED-OIG/I13I0001                                                                                  Page 14 of 29

one case a grantee served the number of participants it was funded to serve, but only four percent
of those students were low-income, first-generation college students. OPE awarded points for
Criterion 1 although the grantee had not served the targeted students. Points should be awarded
to fully support and reinforce program objectives.

Recommendation 1.2
Cease awarding prior experience points to grantees for years that they do not meet minimum
program requirements for future EOC and Talent Search grant competitions.

OPE Comments
OPE did not agree with our recommendation. OPE stated that the prior experience sections of
the regulations do not cite the minimum number of participants. OPE stated that the Department
has concluded that it would not be appropriate to deny all prior experience points to a grantee
who may have been just short of the minimum number of participants. As noted above, OPE
stated that the draft report did not provide a legal or policy rationale for the interpretation of the
regulations.

OIG Response
No changes have been made to the recommendation. We agree in part with OPE’s statement that
the prior experience sections of the regulations do not specifically reference the required
minimum number of program participants. For the EOC and Talent Search programs, Criteria 2
and 3 (34 C.F.R. § 644.22(b)(2) & (3) and 34 C.F.R. § 643.22(b)(2) & (3), respectively) are not
explicitly linked to a grantee serving the minimum number of participants; however, eligibility
for prior experience points under Criterion 1 for both programs is conditioned on the grantee
serving the minimum number of program participants. The regulations at 34 C.F.R. § 644.32
require that an EOC grantee serve a minimum of 1,000 participants, and the regulations at 34
C.F.R. § 643.32 require that a Talent Search grantee serve a minimum of 600 participants.4 If a
grantee has not served the minimum number of participants specified in the regulations, then the
grantee has not met the requirements of the program. In cases where a grantee does not comply
with grant requirements, the Department’s Handbook for the Discretionary Grant Process states
that program staff can initiate action to suspend or terminate the grant. Therefore, awarding
prior experience points for years where the fundamental program requirements were not met
undermines the integrity of the minimum program requirements.

As a result of OPE’s policy of awarding of prior experience points, program funds may not be
targeted in the most effective way at the intended program beneficiaries. OPE’s policy of
awarding prior experience points to grantees that have failed to meet minimum program
requirements inappropriately provides these grantees with an advantage. This policy may
exclude worthy new grant applicants with the ability to serve the disadvantaged student
population targeted by the program statute from receiving a grant. OPE stated that it would not
be appropriate to deny all prior experience points to a grantee who may have been just short of
the minimum number of participants; however, OPE awarded points to grantees in years where
they served far below the minimum number. For example, in the 2006 Talent Search
competition, 12 grantees were funded at the minimum program requirement but failed to meet


4
 The Department can reduce the minimum number of participants a grantee is required to serve if the amount of the
grant for the budget period is less than $180,000.
Final Report
ED-OIG/I13I0001                                                                      Page 15 of 29

this requirement by more than 50 participants. These grantees still received prior experience
points for that year.

If OPE believes that the minimum program requirement is not achieving the intended program
results, OPE should amend the regulations to better align its current activities with the EOC and
Talent Search program objectives.

Recommendation 1.3
Develop a methodology for assessing prior experience for reentry in accordance with 34 C.F.R.
§ 643.22(b)(2) for future Talent Search grant competitions.

OPE Comments
OPE did not agree with our recommendation. OPE stated that the recommendation misstated the
conclusion of the draft report. OPE stated that the draft report does not say that OPE did not
have a methodology for assessing prior experience for reentry, but noted that the Department did
not consider reentry as a criterion during the 2006 Talent Search competition. OPE stated that it
did have a methodology for assessing prior experience for reentry by determining that it was
more appropriate to consider awarding prior experience points only when the prior experience
related to a shared goal of all grantees and when all grantees could be considered on an equal
basis.

OIG Response
No changes have been made to the finding and recommendation based on OPE’s comments to
Recommendation 1.3. We disagree with OPE’s statement that our recommendation misstated
the conclusion of the draft report. As stated in our report, OPE did not evaluate reentry in its
assessment of prior experience. The regulations at 34 C.F.R. § 643.22(b)(2) state that the
Department must evaluate “[t]he extent to which the applicant met or exceeded its objectives
regarding the retention, reentry, and graduation levels of secondary school participants.” Our
recommendation is that OPE develop a methodology for assessing prior experience for reentry in
accordance with 34 C.F.R. § 643.22(b)(2) for future Talent Search grant competitions.

OPE stated that it was more appropriate to award prior experience points when all grantees had a
shared goal and could be considered on an equal basis; however, the regulations require that OPE
evaluate reentry when the applicant had the objective in its application. As stated in our report,
OPE did not evaluate reentry even for applicants that had reentry objectives in their applications.

Finding 2 (now Finding 3)
Recommendation 2.1
Develop a quality assurance process for the assessment of prior experience for future EOC
competitions to ensure accountability and the accuracy of data and calculations.

OPE Comments
OPE agreed with Finding 2 in the draft report, but noted that it implemented several quality
assurance measures to ensure accountability and the accuracy of data calculations for the
Upward Bound and Ronald E. McNair Postbaccalaureate Achievement (McNair) prior
experience assessment processes.
Final Report
ED-OIG/I13I0001                                                                       Page 16 of 29

OIG Response
No changes have been made to the finding and recommendation. Although OPE has
implemented measures that may improve the quality assurance process for the Upward Bound
and McNair Programs, OPE should also develop a quality assurance process specifically for the
assessment of prior experience in future EOC competitions.

Recommendation 2.2
Ensure that the data used to assess prior experience is clearly identified and sufficiently
documented to support the calculation for future EOC and Talent Search grant competitions.

OPE Comments
OPE noted that it developed extensive instructions to provide guidance and policies for assessing
prior experience for the Upward Bound and McNair programs. OPE also stated that it used a
“buddy system” to promote quality assurance and provided extensive training on prior
experience assessment to staff.

OIG Response
No changes have been made to the finding and recommendation. OPE may have improved
quality assurance and provided guidance to program specialists on how to identify and document
support for prior experience calculations in the Upward Bound and McNair Programs; however,
OPE should also implement measures in the EOC and Talent Search competitions to ensure that
the data used to assess prior experience is clearly identified and sufficiently documented.

Finding 3 (now Finding 4)
Recommendation 3.1
Ensure that the objectives used to assess prior experience correspond to grantees’ application
objectives for future EOC and Talent Search grant competitions.

OPE Comments
OPE agreed with Finding 3 in the draft report, but noted that it implemented the following
improvements to address this recommendation: (1) established standard mandatory objectives
for all Talent Search and EOC applicants, (2) required grantees to establish the number of
participants to be served each year and the targets for each of the standard objectives that will be
used to assess prior experience points, (3) revised the APR for the new grant cycle to conform to
the data reporting requirements of the new standard objectives, and (4) pre-populated the
approved objectives into the 2006-07 APR.

OIG Response
No changes have been made to the finding and recommendation. Although OPE may have
established standard mandatory objectives and revised the APR, OPE should ensure that the
objectives used to assess prior experience correspond to the mandatory objectives in the
grantees’ application.
Final Report
ED-OIG/I13I0001                                                                     Page 17 of 29




                  OBJECTIVE, SCOPE, AND METHODOLOGY


The objective of our inspection was to evaluate the appropriateness of the Office of
Postsecondary Education’s (OPE) awarding of prior experience points in the 2006 Educational
Opportunity Centers (EOC) and Talent Search grant competitions.

We began our fieldwork on November 30, 2007, and conducted an exit conference on May 14,
2008.

We reviewed applicable laws and regulations related to determining prior experience for the
EOC and Talent Search programs and interviewed Department staff in OPE and OGC. We also
reviewed the following documentation provided by OPE:

   §   EOC APRs for 2002-03 and 2003-04
   §   Talent Search APRs for 2002-03, 2003-04, and 2004-05
   §   2006 EOC and Talent Search Slates
   §   EOC Prior Experience Assessment Forms
   §   EOC Spreadsheet for Criterion 1
   §   Talent Search Prior Experience Calculation Spreadsheet

To answer our objective, we selected a random sample of 20 grant applicants from a total of 137
EOC prior grantees that were assessed for prior experience in the 2006 grant competition. We
also selected a random sample of 20 grant applicants from a total of 457 Talent Search prior
grantees that were eligible for funding and assessed for prior experience in the 2006 grant
competition.

To determine if OPE used the appropriate information to assess prior experience for EOC, we
compared the information in the EOC prior experience assessment forms to the grant
applications, the APRs, and the EOC spreadsheet for Criterion 1 for the 20 grantees in our
sample. We replaced two of the grantees in our original EOC sample because OPE was unable
to locate all of the documentation for these grantees at the time of our review. We did not report
the missing files as an issue because OPE subsequently informed us that they were able to locate
the files.

To determine if OPE used the appropriate information to assess prior experience for Talent
Search, we compared the information in the Talent Search prior experience calculation
spreadsheet to the grant applications and the APRs for the 20 grantees in our sample.

To determine if OPE appropriately calculated prior experience points, we verified the
calculations on all 137 EOC prior experience assessment forms and evaluated the formula used
in the Talent Search PE calculation spreadsheet.

To verify the accuracy of the total prior experience scores stated in the 2006 EOC and Talent
Search slates, we compared the total prior experience scores in the slates to the total prior
Final Report
ED-OIG/I13I0001                                                                     Page 18 of 29

experience scores on the 137 EOC prior experience assessment forms and for the 457 Talent
Search grantees in the prior experience calculation spreadsheet.

Our inspection was performed in accordance with the 2005 President’s Council on Integrity and
Efficiency Quality Standards for Inspections appropriate to the scope of the inspection described
above.
Final Report
ED-OIG/I13I0001                                                                           Page 19 of 29



                                         APPENDICES


Appendix 1. Educational Opportunity Centers (EOC) Issues by Finding (Sample of 20)
                                                                                  Finding
Application No.       Grantee                                            1       2        3      4
P066A060140           College Board                                                       X
P066A060329           Connecticut Talent Assistance Cooperative                           X
P066A060309           Montgomery College                                        X         X
P066A060069           East Central University                                             X
P066A060146           Southeastern Louisiana University
P066A060230           South Carolina State University                                           X
P066A060135           Ohio Appalachian Center for Higher Ed.            X                 X
P066A060224           Victoria County Junior College District                   X         X
P066A060030           Inter American University of Puerto Rico                                  X
P066A060201           Southwest Tennessee Community College             X       X         X
P066A060270           University of Maine                                                 X
P066A060145           University of Cincinnati                                            X
P066A060193           Mount Wachusett Community College                 X       X
P066A060039           Inter American University of Puerto Rico/                           X
                      Arecibo
P066A060068           Lake Michigan College                             X                 X
P066A060134           Inter American University of Puerto Rico                            X
P066A060158           University of Wyoming                                               X
P066A060113           University of Georgia                                               X     X
P066A060281           Atlanta Metropolitan College                              X         X     X
P066A060303           Piedmont Community College                                          X     X
                                                           Total:        4       5        16    5

Finding 1   OPE’s awarding of prior experience points was not in compliance with the regulations.
            Issue:      1. OPE improperly awarded partial points.
Finding 2   OPE awarded points to grantees that did not meet minimum program requirements.
            Issue:      1. OPE awarded points to grantees that did not meet minimum program
                           requirements.
Finding 3   OPE made errors in the execution of its prior experience points assessment.
            Issues:     1. OPE used incorrect source data.
                        2. OPE made documentation errors.
                        3. OPE made math and transcription errors.
Finding 4   OPE changed its process for awarding prior experience points without having the
            appropriate data to evaluate grantees.
            Issues:     1. Double counting of number assisted resulted in an achievement rate greater
                           than 100%.
                        2. Grantee objectives did not correspond with the prior experience assessment.
Final Report
ED-OIG/I13I0001                                                                           Page 20 of 29

Appendix 2. Talent Search Issues by Finding (Sample of 20)
                                                                                  Finding
Application No.       Grantee                                           1        2        3     4
P044A060076           New Mexico Junior College                         X                 X     X
P044A060191           National League of Cuban American                                   X     X
                      Community Based Centers
P044A060027           Robert Morris College                             X                 X     X
P044A060580           Douglas Cherokee Economic Authority,              X
                      Inc.
P044A060137           SUNY/Potsdam                                      X                 X
P044A060073           Tuskegee University
P044A060068           Santa Fe Community College                        X
P044A060576           Tri-County Technical College                      X       X               X
P044A060879           Seton Hall University                             X
P044A060642           Greater Erie Community Action Committee           X
P044A060674           Philadelphia Education Fund                       X
P044A060810           National-Louis University                         X       X         X
P044A060104           Shelton State Community College
P044A060051           Labette Community College                         X                       X
P044A060401           University of South Alabama
P044A060052           Inter American University of Puerto               X                       X
                      Rico/San German
P044A060566           Canisius College                                  X                 X
P044A060542           University of Notre Dame                          X                       X
P044A060207           University of Wisconsin/Milwaukee                 X
P044A060122           University of Arkansas/Fayetteville               X                 X     X
                                                          Total:        16       2        7     8

Finding 1   OPE’s awarding of prior experience points was not in compliance with the regulations.
            Issues:     1. OPE improperly awarded partial points.
                        2. OPE did not evaluate grantees’ reentry objective.
Finding 2   OPE awarded points to grantees that did not meet minimum program requirements
            Issue:      1. OPE awarded points to grantees that did not meet minimum program
                           requirements.
Finding 3   OPE made errors in the execution of its prior experience points assessment.
            Issue:      1. OPE made documentation errors.
Finding 4   OPE changed its process for awarding prior experience points without having the
            appropriate data to evaluate grantees.
            Issue:      1. Grantee objectives did not correspond with the prior experience assessment.
Final Report
ED-OIG/I13I0001                                                          Page 21 of 29

Appendix 3. EOC Grantees with Differences in Total Points Between the
            Assessment Form and Funding Slate
                                                             Total PE Points
Application No.   Grantee                                    Form      Slate
P066A060127       Pensacola Junior College                    12        11
P066A060284       Applied Information Management (AIM)         8         7
                  Institute
P066A060140       College Entrance Examination Board           9         14
P066A060238       Marshall University                          12        15
P066A060200       Northern Arizona University                  13        15
P066A060195       University of Tennessee/Knoxville            7         13
P066A060243       National Scholarship Service                 7         13
P066A060070       Arizona State University/Tempe              14.5       15
P066A060348       Fort Valley State University                 11        13
P066A060373       Malcolm X College                           10.5       15
P066A060157       University of New Mexico                    8.5       13.5
P066A060337       University of Washington                     8         6
Final Report
ED-OIG/I13I0001                                                           Page 22 of 29

Appendix 4. EOC Grantees with Point Gains Due to Math and Transcription Errors
Application No.   Grantee                                        Points Gained
P066A060039       Inter American University of Puerto Rico            1.0
P066A060261       University of Pennsylvania                          3.0
P066A060224       Victoria County Junior College District             1.0
P066A060258       Texas Southern University                           1.0
P066A060301       Colorado State University                           1.5
P066A060329       CT Talent Assistance Corp.                          1.0
P066A060214       Southwest VA Community College                      0.5
P066A060033       VA Tidewater Consortium for Higher Education        1.0
P066A060061       Cincinnati State Tech. and Community College        1.0
P066A060262       Cuyahoga Community College                          5.0
P066A060015       North Arkansas College                              3.0
P066A060056       Educational Partners, Inc.                          3.0
P066A060067       Mid-South Community College                         2.0
P066A060060       Eastern New Mexico University                       1.0
P066A060045       University of Kansas                                1.0
P066A060087       University of South Carolina                        1.0
P066A060135       Shawnee State University                            0.5
Final Report
ED-OIG/I13I0001                                                         Page 23 of 29

Appendix 5. EOC Grantees with Point Losses Due to Math and Transcription Errors
Application No.   Grantee                                       Points Lost
P066A060126       University of Wisconsin System/Milwaukee          3.0
P066A060142       Halifax Community College                         2.0
P066A060057       Odessa College                                    2.0
P066A060204       Southwest Texas Junior College                    1.0
P066A060349       LEARN Inc.                                        2.0
P066A060257       Texas Association of Developing Colleges          4.0
P066A060303       Piedmont Community College                        3.0
P066A060339       Texas State Technical College/Harlingen           1.0
P066A060012       Rogers State University                           4.0
P066A060157       University of New Mexico                          3.0
P066A060172       University of Northern Iowa                       3.0
P066A060175       Creighton University                              3.0
P066A060078       Delta Sigma Theta, Inc.                           3.0
P066A060127       Pensacola Junior College                          2.0
P066A060197       Palm Beach Community College                      2.0
P066A060058       Morehead State University                         1.0
P066A060255       Tougaloo College                                  4.0
P066A060284       Applied Information Management Institute          1.0
P066A060309       Montgomery College                                1.0
P066A060238       Marshall University                               1.0
P066A060281       Atlanta Metropolitan College                      1.0
Final Report
ED-OIG/I13I0001   Page 24 of 29
Final Report
ED-OIG/I13I0001   Page 25 of 29
Final Report
ED-OIG/I13I0001   Page 26 of 29
Final Report
ED-OIG/I13I0001   Page 27 of 29
Final Report
ED-OIG/I13I0001   Page 28 of 29
Final Report
ED-OIG/I13I0001   Page 29 of 29
